HHS/OIG-Audit--"Follow-up Review of Unliquidated Obligation Balances in Successor-Merged Appropriation Accounts, (A-12-91-00012)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of Unliquidated Obligation Balances in Successor-Merged
Appropriation Accounts," (A-12-91-00012)
December 24, 1991
Complete Text of Report is available in PDF format
(175 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our follow-up review of unliquidated
obligation (ULO) balances in successor-merged appropriation accounts ("M"
accounts). We found that three of the four recommendations in our original report
have been implemented. The fourth recommendation which recommended that the
Division of Accounting Operations conduct and document the results of internal
control reviews and the performance of annual reviews of ULO balances, was not
effectively implemented.